TN

C@OCKLE

2311 Douglas Street Le ga ] Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No,
RETAIL READY CAREER CENTER, INC.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of January, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JACK G. B. TERNAN
jt@ternanlawfirm.com
TERNAN LAW FIRM, PLLC
1400 Preston Road, Suite 400
Plano, Texas 75093
(972) 665-9939

Subscribed and sworn to before me this 30th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

sem  E Ellie Qdeww-h, hl

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 30417
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
